<html>
<title> - [H.A.S.C. No. 114-109] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-109]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

   THE U.S. TRANSPORTATION COMMAND FISCAL YEAR 2017 READINESS POSTURE

                               __________

                              HEARING HELD
                             MARCH 15, 2016


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    

                                     
  
  
  
  
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-061                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York, Vice    JOAQUIN CASTRO, Texas
    Chair                            TAMMY DUCKWORTH, Illinois
FRANK A. LoBIONDO, New Jersey        SCOTT H. PETERS, California
MIKE ROGERS, Alabama                 TULSI GABBARD, Hawaii
CHRISTOPHER P. GIBSON, New York      BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Margaret Dean, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

McDew, Gen Darren W., Commander, USAF, United States 
  Transportation Command.........................................     2

                                APPENDIX

Prepared Statements:

    McDew, Gen Darren W..........................................    22
    Wittman, Hon. Robert J.......................................    21

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Hunter...................................................    43
    Mr. Wittman..................................................    43
    
    
    
    
    
    
    
   THE U.S. TRANSPORTATION COMMAND FISCAL YEAR 2017 READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Tuesday, March 15, 2016.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. I will call to order the Subcommittee on 
Readiness of the House Armed Services Committee.
    I want to welcome everybody and thank you for being here 
today with us for the Readiness hearing on the U.S. 
Transportation Command [TRANSCOM] fiscal year 2017 readiness 
posture.
    This is the only hearing in front of this committee by 
TRANSCOM and it has been 2 years since we have had the 
opportunity for the Transportation Command to present its 
readiness posture.
    In the past 3 months, the services testified on increased 
readiness risks due to reduced investments in installation 
infrastructure, training, and equipment. Today I look forward 
to hearing how the Transportation Command's budget request 
enables a readiness recovery plan and where we continue to take 
risk.
    I would like to welcome all of our members and our 
distinguished Air Force expert. This morning we have with us 
General Darren McDew, U.S. Air Force, Commander, United States 
Transportation Command, distinguished VMI [Virginia Military 
Institute] graduate.
    Thank you for testifying today. We look forward to your 
thoughts and insights on these important issues. The purpose of 
this hearing is to clarify Transportation Command's posture to 
address readiness priorities, mitigation strategies, and to 
gather more detail on the current and future impacts of these 
decisions on operations and training.
    Once again, I want to thank our witness for participating 
in our hearing today, and I look forward to discussing these 
important topics.
    And now I would like to turn to our ranking member, 
Madeleine Bordallo, for any remarks that she might have upon 
her return from Guam.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 21.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, for 
calling this hearing today and, General McDew, I welcome you 
and your entourage.
    I am glad that we are able to hold this meeting, and I 
thank you for being here and for your service to our Nation.
    Transportation Command as a functional combatant command 
plays an integral role in the central planning and the 
execution for the movement of our forces and their equipment. 
As the only command with operational requirements on each of 
the seven continents, TRANSCOM is asked to carry out land, sea, 
and air mobility missions around the world. It enables our 
military to project force in a timely and an efficient manner 
in response to both planned and unforeseen contingency 
operations.
    We have heard from several of the services and combatant 
commands [COCOMs] already this year about the funding 
unpredictability levied by sequestration and years of 
continuing resolutions [CRs]. So I hope that you help us better 
understand how these fiscal conditions have affected readiness 
within TRANSCOM, and where our committee in Congress, as a 
whole, can stop the damage and begin to repair our force.
    I thank you again for being here today, General, and we 
look forward to hearing from you.
    And I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    General McDew, we will go to you for your opening statement 
and want you to know, too, that your written statement will be 
entered into the record.

   STATEMENT OF GEN DARREN W. McDEW, COMMANDER, USAF, UNITED 
                 STATES TRANSPORTATION COMMAND

    General McDew. Thank you, Chairman Wittman, and since you 
opened it up, a hearty, ``Rah Virginia Mil!''
    Chairman Wittman, Ranking Member Bordallo--I hope I didn't 
butcher that, ma'am--and distinguished members of this 
committee, it is an honor to be with you today representing the 
men and women of the United States Transportation Command. I 
would like to thank you for the opportunity to address the 
committee and I would like to thank you for the unwavering 
support you give to the men and women who serve this mighty 
Nation.
    I value the time I get to speak to you, and I would like to 
start by highlighting a true American hero with whom I have had 
the pleasure to serve, my senior enlisted leader, Chief Master 
Sergeant William W. Turner. Bill enlisted in July of 1986 in 
Shelbyville, Tennessee, and after 30 years of faithful service, 
this impeccable leader, this airman, his wife, Stacey, and his 
children, Regan, Tyler, Haley, and Jacey, are retiring in May. 
It is a tough, tough thing for him to do.
    Chief Turner is a true American hero who has served with 
distinction, participating in contingency operations around the 
globe, including nine deployments in support of Operations 
Enduring Freedom and Iraqi Freedom. He deserves all the respect 
and appreciation our Nation can possibly bestow and he is 
emblematic of those men and women I represent today. But Bill 
Turner will be sorely missed. And he stands right behind me.
    As I appear before you today, I assure you that those men 
and women that he represents in U.S. Transportation Command 
stand ready to deliver this Nation's objectives anywhere at any 
time. I am in awe every day of what its members are capable of, 
and I am proud to serve next to them.
    I am confident our organization is ready to respond when 
our Nation calls. However, there are several trends that 
concern me. First, the current pace of today's operations 
requires the full effort of our non-mobilized air refueling and 
airlift fleets. Should the need arise to respond elsewhere in 
the world, the mobility resources required could exceed 
existing capacity.
    Additionally, I am concerned about our ability to operate 
in increasingly contested environments, including the cyber 
domain where nearly 90 percent of our traffic flows on 
unclassified networks to and from our commercial providers.
    Finally, we must remain vigilant and meet the long-term 
recapitalization needs of tomorrow. Highest among these 
priorities are the development of a viable, strategic sealift 
recapitalization plan and the on-time delivery of the KC-46 
Alpha.
    To address these concerns, I have established the following 
priorities for the command. Ensuring today's readiness while 
advocating for tomorrow's capabilities, advancing our cyber 
domain capabilities, evolving to remain relevant in tomorrow's 
world, and championing an innovative workforce. These 
priorities balance today's readiness while ensuring our focus 
remains clearly on the future.
    In closing, I am committed to working closely with Congress 
and the services to retain the flexibility we require while 
partnering in and out of DOD [Department of Defense] to ensure 
we are always ready to deliver the Nation's objectives in time 
of need.
    Chairman Wittman, Ranking Member Bordallo, and 
distinguished members of this committee, thank you again for 
your time and your support to U.S. Transportation Command and 
our total force, and I stand ready for your questions.
    [The prepared statement of General McDew can be found in 
the Appendix on page 22.]
    Mr. Wittman. Thank you, General McDew. I appreciate your 
opening statement and your perspective on both the 
opportunities and challenges there before TRANSCOM.
    I want to begin by exploring the challenges that TRANSCOM 
faces in the cyber realm. And you spoke to those and that you 
were in the unique situation versus other COCOMs and even other 
elements of our Nation's military and the interconnectivity 
between your systems and systems of the industry and systems of 
customers and how that has to be addressed, obviously, in 
today's threat world.
    Give us your perspective on what, first of all, TRANSCOM is 
doing in addressing those threats.
    And then secondly, what type of support are you getting 
from U.S. Cyber Command? And more specifically, do they 
understand the variety of threats that you face because of the 
uniqueness of your systems, and are they, number one, cognizant 
of that? And number two, are they allowing you the flexibility 
you need to make sure that you are properly defending 
TRANSCOM's digital systems?
    General McDew. Thank you, Chairman.
    On the first, on what is U.S. Transportation Command doing, 
the cyber threat--I believe we are in our infancy as a nation 
in dealing with the cyber threat. All of us would probably 
agree that we couldn't foretell where we would be today with a 
cyber threat versus where we were just 10 years ago. And I am 
concerned, as will all of us--where we will be 10 years from 
now.
    U.S. Transportation Command is doing an exceptional job of 
defending our own network and our enclave. As we talked earlier 
this morning, we have some great cyber professionals who won 
awards in how well we defend our network.
    On the periphery of that defense though lies 90 percent of 
what we do, which is on the unclassified commercial networks 
and outside of that we have commercial providers that are under 
attack every single day. So you might not necessarily have to 
attack my strong position inside USTRANSCOM, but go after 
someone who provides us a service.
    With that I am concerned about some definitions that we 
need to get after and that is when I defend my network, how far 
out can I defend? What constitutes an attack on a commercial 
provider? What do they have to report as an attack, because the 
definition may be not as clear with every single person. Those 
are just a few.
    Because of that I believe we are uniquely postured as U.S. 
Transportation Command to work both inside the military and 
outside with Homeland Security in bridging the gap between 
military capabilities and commercial capabilities.
    And that is where Cyber Command squarely fits. And Admiral 
Rogers and I, the Cyber commander, are tied at the hip. He 
fully understands our dilemma. His team is completely linked 
with ours and they are great supporters.
    Mr. Wittman. Thank you. I know that it certainly provides 
you a number of challenges that you must deal with and we want 
to make sure that Cyber Command is cognizant of those and is 
there to help you. I think yours is a unique situation and one 
that we want to make sure that you have the tools necessary to 
defend your systems as well as understanding where the threats 
are from your customers and also from the industry that you 
work with.
    Let me talk about the Maritime Security Program [MSP]. And 
I want to go to the Merchant Marine Act and the U.S. policy 
there states that the vessels of the Merchant Marine shall be 
operated by highly trained and efficient citizens in the United 
States.
    And I understand that as you implement the Maritime 
Security Program, there are about 60 ships there of the 78 
total that are available to provide that sealift, to provide 
that ability for us to move things around as necessary to 
preposition supplies. All those things are extraordinary 
critical and I can go through the numbers of what was moved 
during the conflicts in the Middle East. And it is mind-
boggling what has been done there, the logistics of what you 
all have done both in Iraq and especially in Afghanistan with 
sometimes challenges to the lines of communication and trying 
to get our military hardware to ports in places like Karachi 
and others.
    A couple of questions that I have is concerning the MSP. To 
what extent are you looking at the program--not just today in 
the capability but what the program needs to provide in the 
future, understanding the challenges that the industry faces 
both with capacity that is in the ships but also capability and 
that is in the merchant mariners that run those ships?
    Give me your perspective on where you see us today but also 
what TRANSCOM needs to do to make sure the future is such that 
both the capacity and capability are there in necessary 
quantities to meet United States military needs.
    General McDew. Yes, Chairman. The Nation is still a 
maritime nation. And our reliance on the maritime force to 
deliver what we call a decisive force. I can deliver an 
immediate force anywhere on the planet tonight. But to deliver 
a decisive force it takes a fully fledged, competent, maritime 
fleet. And that is what the MSP provides us.
    And in the future of the program, in the number of ships 
and in mariners both are concerns. First with ships. The 60 
ships of the 78 is telling because we only have 78 in the 
entire international market for the United States--a maritime 
nation. That is, I believe, a challenge. We ought to have a 
dialogue about how important is a U.S. international fleet to 
the United States of America. I believe it is vital to moving 
military goods and hardware.
    And as you articulated quite well, we could not have done 
the last wars we had without that decisive force being 
delivered by our maritime partners. As a matter of fact as an 
airman, as a career airman it kind of daunts me to tell you 
that it is the maritime force that provides that decisive army 
to provide force around the world.
    And we are working very closely with the Department of the 
Navy to come up with a balanced program that will get after 
ship recapitalization and whether or not and how we 
recapitalize those ships and how long it will take. What we 
don't want to do is take away from the building of other ships. 
And so we got to have some leverage. Is there a part of it that 
will be--maybe we buy some foreign-built ships to bridge the 
gap? Do we build new ships? All of it has to be factored in to 
what the U.S. Navy is doing as well.
    On the mariners--without mariners we don't have a 
capability. And I believe that U.S. credentialed mariners is 
important too. So I have been visiting some of the maritime 
colleges to ensure that those young men and women understand 
how much we need them, how much we value their credentials they 
come out of college with and we need them to go to sea. And we 
need them to stay with us.
    And so it is important that we keep about 11,000 plus is 
what MARAD [U.S. Maritime Administration] tells me, mariners in 
the fleet.
    Mr. Wittman. Very good. Well thanks for your perspective on 
where we are today but also what we need to do in the future 
and I agree with you, we need to have some soul-searching 
conversations about what--both capacity and capability we need 
to build for the future. We know today it seems to be in 
somewhat a state of atrophy, and we need to make sure we are 
anticipating the needs in the future.
    So General McDew thank you so much. And Chief Turner thank 
you, thanks for your service to our Nation. Thanks for all that 
you have done. We wish you all the best in your retirement. 
Please give our best to your wonderful family. I know they 
sacrifice as you serve. Please thank them. We know that service 
to our Nation is indeed a family affair and we appreciate your 
stellar performance and your dedication to this Nation. Thank 
you.
    Now we will go to Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. General 
McDew, every service that has come before our committee has 
talked about the delicate balance between readiness and 
modernization in today's atmosphere of fiscal constraint.
    What primary, secondary, or other affects have fiscal 
constraints put on TRANSCOM readiness, whether in terms of 
personnel or equipment?
    General McDew. Ms. Bordallo, the services have a daunting 
challenge. The first, which--our Secretary of Defense has laid 
out some priorities of what the challenges are that face this 
Nation. I would put at the top of the list--fiscal.
    The threat of sequestration threatens directly the 
services, which directly threatens every single--every single 
combatant command because we are organized, trained, and 
equipped by the services. We have great partnership with the 
services. But their ability to modernize and project that 
modernization forward and plan forward has been challenged by 
the up and down of the fiscal environment. I will put it that 
way.
    So going forward, we have got to provide a stable budget, 
then we work on the size of that budget. But a stable budget, a 
predictable budget, is very, very, very important.
    I am concerned that if they have to make tough choices, 
ma'am--honestly--a tough choice between a new aircraft carrier 
or a new sealift vessel--that is going to be an interesting 
challenge that will impact our ability to transport.
    They understand how important what we do here at the 
Transportation Command is, but they have to make some tough 
choices, and I don't want to have to pit one against the other.
    Ms. Bordallo. Thank you. Your command, General, has 
experienced a decreased OPSTEMPO [operations tempo] from the 
height of the war in Afghanistan. Now if the demand for global 
transportation does continue to decline, how will the reduced 
workload affect overall readiness in TRANSCOM and will our 
forces benefit from increased time to recover in time or will 
the reduced contributions to the Transportation Working Capital 
Fund adversely affect readiness?
    General McDew. Yes and no. The decreased OPSTEMPO can't be 
felt across the entire enterprise. I will tell you that we have 
some areas that are still hitting a high OPTEMPO and that is 
our tanker fleet. Our KC-135 and KC-10 refueling fleet is 
stressed at a point that--near bending.
    And I am concerned our ability to flex that force to 
another region of the world if we needed to. So that is still 
at a very, very high OPTEMPO, as are some other smaller areas 
in the command.
    There have been a decrease of cargo flow throughout the 
enterprise and that has been documented. And I am concerned 
that we need to have enough cargo flow to ensure that our 
airlift industry, our gray-tailed--both gray-tail and gray-
hulled fleet that we own inside the services, and our maritime 
fleet have enough business to keep the capacity we will need in 
the next conflict.
    Because as you know the world is more volatile and we are 
going to have a conflict somewhere and we just need to make 
sure we can have that capacity that we will need and I am 
concerned that too low a flow on the cargo will keep us from 
keeping that at capacity.
    Ms. Bordallo. That is right. All right and I have a third 
question. As we continue the Pacific rebalance strategy, what 
opportunities does this provide to broaden the skills and 
experience of our mobility force? Will the increase in 
transportation need throughout the Pacific provide any 
additional challenges to TRANSCOM?
    And lastly, does TRANSCOM foresee the need for any 
increased infrastructure or capabilities in the region to help 
facilitate transportation operations?
    General McDew. You earlier acknowledged that the fact that 
U.S. Transportation Command is a functional component command. 
I sometimes like to play with the words a little bit. We are a 
functional command, yes, but we have a global responsibility 
and global reach. And we are already in the Pacific. And we are 
working very closely with U.S. Pacific Command [USPACOM].
    We know that there are challenges with distance and time in 
that region. We know that we have some volatile actors in that 
region so we are very, very closely aligned with USPACOM and 
what they are trying to do in the region.
    There are some challenges there but I believe the PACOM 
team is doing some amazing things in the region with partners 
and allies to give us bed-down options and access to ports.
    The challenges of cyber and the challenges of a malign 
actor forcing attrition upon us are sums that we have to 
continue to concern ourselves with but I will tell you, U.S. 
Transportation Command is already in the Pacific and we 
understand the region and our crews are ready to operate there.
    Ms. Bordallo. I am pleased to hear that. Thank you.
    And I, too, would like to go on record as wishing Chief 
Turner the best in the future. Thank you for your service.
    And I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    And now I go to Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    General, thanks to you and your team for the outstanding 
work and service to our country. As you can tell probably from 
some of the questions from the chairman and ranking member that 
the Maritime Security Program is something on our minds, very 
keen that many of us are concerned that if we don't pay 
attention to this program, not something that probably a lot of 
people in America know much about, probably don't care much 
about. But if the wrong thing happens and some conflict breaks 
out and we don't have the proper infrastructure, we are in 
pretty serious--pretty serious problems.
    So you have talked a little bit about it, you have answered 
some of the chairman and the ranking member's questions, but is 
there anything else you can suggest that we can do to ensure 
the health of the Maritime Security Program while right now not 
a lot of people are paying a lot of attention to it?
    General McDew. Congressman, I believe that MARAD, the MARAD 
administration probably summed up the Maritime Security Program 
and the interest in the fleet best when he refers to it as a 
three-legged stool. And there are three things that really can 
strengthen and underpin our maritime force.
    One is the stipend, the MSP that we are talking about. One 
is cargo preference, and we have seen some things over the last 
few years that have decreased the amount of cargo preference 
some of these industries have had. And the other is a robust 
international trade.
    The problem we have is, from my perspective, the only lever 
we have in the Department and inside of MARAD is the stipend. 
That is the only lever that we can actually control. And so 
right now that stipend of $3.1 million which we ought to look 
at increasing over time is keeping 60 ships of only 78 with us. 
And I am behind anything that further increases our ability to 
make sure that we have the capacity we need to go to war.
    And I think that is a leg of the stool that we have got to 
continue to keep an eye on.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. LoBiondo.
    And I go to Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and, General, thank 
you for being here and your staff and to the Chief Master 
Sergeant, congrats. It is a good feeling when you know you are 
going to retire. This is my last year, too, so it is a good 
thing.
    And I think you hit on it particularly, you know, we talk 
about the rebalance to the Pacific but right now what is going 
on in Europe and we are looking at, you know, prepositioning 
forces there but trying to surge people there. You know, 
without maritime lift capacity, my sons that are all in the 
Army are going to be kind of hard-pressed just because you 
can't put a Paladin or an Abrams--you can't carry very many on 
an aircraft. But you sure as heck can on a ship.
    You mentioned 78 ships. What do you think the realistic--or 
what numbers should we really be striving to get to to be able 
to meet the surge command, you know, possibilities that we may 
have to face in the future?
    General McDew. You are right, Congressman Nugent.
    On the ability to provide that decisive force, your sons in 
the Army want ships to be able to do that. The 60 ships that we 
have in the Maritime Security Program provide us that ability 
to have capacity in the time of need.
    What we owe is a continual look at what those numbers look 
like, and we work with MARAD who really runs that program for 
us to see what the industry will allow and what portion of the 
industry we can have in the program.
    Will we need all the ships in the program? Maybe not. But 
we need enough in the program to move those critical pieces of 
equipment. There are some that believe that we can rely on 
nations around the world to help us. And maybe we can, but 
history has shown us that--and the law tells us--that we must 
be able to move those critical components with our own 
indigenous forces. And so that is what the 60 gives us and I am 
willing to continue to work with MARAD and the services to 
ensure that we have what--the right capacity going forward.
    Mr. Nugent. Okay, so you really didn't answer the question. 
I am sorry, General, but I was trying to get at, what do you 
think the force should look at? I understand, you know, the 60 
and the 78, but where do you think we should be striving to get 
to as we look forward in regards for this committee and regards 
to appropriations in the future?
    General McDew. Sorry for----
    Mr. Nugent. Okay.
    General McDew [continuing]. Kind of skating a little.
    I don't have an actual number in mind but the team right 
now is--we got--we have a mobility review coming up in the fall 
that will try to get after those numbers. I am concerned that 
we may need additional numbers only because we have had free 
movement through the oceans for the last few conflicts. We have 
not had to worry about attrition and we have not had to worry 
about access to ports and those threats that now can put the 60 
ships in jeopardy.
    So 60, although provides the amount of capacity we will 
need, will also provide the insurance against attrition.
    Mr. Nugent. Right.
    General McDew. And so those--that study--that exercise we 
are going to do in the fall is going to try to get after some 
of those numbers. I don't have an actual number----
    Mr. Nugent. Okay, I appreciate your candor on that.
    We talk about sealift but then we also need to talk about 
the ability to get our troops into theater, and I know the Air 
Force has limited capacity and so we rely upon our civilian 
fleet to do that.
    My concern is that we are starting--correct me if I am 
wrong--that we have started to depend upon foreign aircraft or 
transportation for our troops and, you know, my kids have flown 
on a number of different service-provided aircraft to get to 
Afghanistan and to Iraq.
    Is that true that we are having to rely upon foreign 
aircraft carriers or aircraft?
    General McDew. I would never say never but we have a very 
robust Civil Reserve Air Fleet----
    Mr. Nugent. Right.
    General McDew [continuing]. That is U.S. air carriers.
    Mr. Nugent. Right.
    General McDew. A very robust industry and we have been 
using them to the max extent possible. There are some probably 
subcontracts that may be going on out there inside of the CRAF 
[Civil Reserve Air Fleet] program----
    Mr. Nugent. Right.
    General McDew [continuing]. That we may be using to augment 
that capability. But I don't believe that there is any lack of 
capacity in our craft program right now that we ought to be 
concerned about.
    Mr. Nugent. So is that a problem for us, so if they 
subcontract--if an American carrier subcontracts to a non-U.S. 
carrier that is not certified as CRAF.
    General McDew. They will not necessarily be certified as 
CRAF but they have their own certifications in order to be part 
of our program. In order to be used by that as a subcontractor, 
they have to meet certain criteria. I don't have it off the top 
of my head right now but I am not concerned about the carriers 
that are being used in the system today.
    Mr. Nugent. Okay, because I do--like I said, I have three 
sons that are in the military, in the Army, and I want to make 
sure that when they are transported--not my sons, alone--but 
all of our sons and daughters that get put in a theater that we 
make sure that their ride there is as risk-free as possible. So 
I appreciate it.
    General McDew. The vast majority is done----
    Mr. Nugent. Okay.
    General McDew [continuing]. On U.S. carriers as part of our 
CRAF program. And it is rare that we will use otherwise. And so 
I would have to look at those circumstances.
    Mr. Nugent. I appreciate that, General, and Mr. Chairman, 
thank you very much.
    Mr. Wittman. Thank you, Mr. Nugent.
    Mrs. Hartzler. Okay, all right.
    General McDew, I wanted to drill down a little bit about 
some of the comments that you made talking about capacity, we 
talk about the 78 ships, 60 of which are obligated to TRANSCOM 
in the efforts that they have going forward.
    You spoke about the possibility if the need was there for 
the use of foreign ships. I want you to elaborate on that a 
little bit. Obviously, knowing that they would have to be 
manned by U.S. merchant mariners, citizens of the United 
States, and so I want to get your perspective on how MSP would 
work if you were to--I am assuming contract with foreign ships.
    Give us your perspective, too, on the Jones Act. There is 
many times there is discussion about the Jones Act, whether it 
should stay in place or whether it should not. I think the 
Jones Act has a tremendous amount of utility, especially in 
situations as we face potentially with capacity within our 
sealift ability.
    So give me your perspective there on foreign ships versus 
U.S.-flag ships, the Jones Act, and then how do you manage 
within that realm, again, merchant mariners with--to establish 
that capability?
    General McDew. I may have been a little unclear----
    Mr. Wittman. Sure.
    General McDew [continuing]. What I first transmitted.
    In the MSP it is all U.S. flag--U.S. crewed ships. I 
posited that we ought to have a conversation as a country about 
whether or not we believe that is the way to go forward. I am 
not advocating. But if we don't keep an eye on our capability 
and our capacity, we may find ourselves there by default. And I 
am not advocating that either. But I mentioned that as 
something we ought to be concerned about as a nation--a 
maritime nation.
    So thank you for letting me clarify that a little bit.
    Mr. Wittman. Sure.
    General McDew. I am not advocating----
    Mr. Wittman. Got you.
    General McDew [continuing]. That at all.
    I am advocating potentially as a bridge to capacity and the 
ships that we have in some of our gray-hull fleet and how we 
recapitalize some of those ships is--maybe we can have some 
foreign-built capacity in those ships as we work--these are the 
ones we keep in reserve, our Ready Reserve Force. Can we have 
foreign-built ships?
    The stipend, as we have talked about before, provides our 
maritime industry a little bit of defraying of the cost of the 
difference between what it costs to run a U.S. flag 
organization versus a foreign flag. And the numbers that MARAD 
tells me recently--I don't want to be completely quoted----
    Mr. Wittman. Sure.
    General McDew [continuing]. But the $3.1 [million] just 
defrays the cost of that difference, it doesn't cover the cost 
of that difference. And some would say that that difference is 
upwards of $5 million today. And it may be going up to $6 
million, $7 million, $8 million in the out-years, that 
difference in costs.
    And so that is where the true conversation about MSP and 
the stipend gets to.
    Mr. Wittman. Well, thanks for clarifying that because I do 
think it is a discussion we need to have concerning how do we 
make sure we have that capacity. How do we make sure too that 
we have the capacity going in the future, obviously--aging 
fleet, as you spoke of the capability there to make sure we 
have U.S. merchant mariners to man those ships. I think it is 
extraordinarily important, so definitely an issue we have to 
talk about.
    We put a lot of focus now on amphibious lift, sealift as an 
important component--in fact there is an element of amphibious 
lift that is indeed a sealift component, although it is a 
military ship, per se, it assumes the same role as a sealift 
ship would be in prepositioning supplies and making sure that 
we can move things in the right way in the timely ways that we 
need to.
    So I agree, I think that your perspective there is 
extraordinarily important and one that we need to address on 
the House Armed Services Committee.
    Ms. Bordallo.
    Ms. Bordallo. Thank you Mr. Chairman. General McDew, 
question for you.
    TRANSCOM recently released the CRAF Report in response to 
the fiscal year 2016 NDAA [National Defense Authorization Act]. 
Can you relate how TRANSCOM engaged with industry in developing 
the inputs in this report to Congress? And was there agreement 
generally or are there still areas of disagreement?
    General McDew. Thank you for the opportunity to talk about 
that a little bit, the CRAF report.
    If I may step back just a second and talk about the 
industry, I believe that U.S. Transportation Command and our 
international, our commercial aircraft industry in this country 
have a good relationship. There is no universal agreement in 
that industry about anything.
    However, I believe--I am being a bit facetious, but if you 
get 20-some-odd carriers in a room you may get a little bit of 
disagreement. So I don't believe we have universal agreement 
but I think we have good agreement that the report addresses 
their concerns.
    I think that we can always improve communication. The 
disagreement we had going into--that caused us to have to do 
the report in the first place, I think, was purely a lack of 
communication, a lack of understanding about terms.
    In the report, we talk about block hours, and that is what 
the commercial industry uses to do their training, do a lot of 
the financing--we don't typically use that term in our 
business. So we may have been talking past each other when we 
talk about readiness of that fleet compared to the readiness of 
our Air Force fleet and the fleets we use.
    So we did engage heavily with industry, we let them see the 
advance reports, which I think upset a few. We then changed the 
report and modified it to address some of their concerns. And I 
believe the final report we included letters from many of the 
carriers. A couple of them still disagree with what is in the 
report but many of them are supportive.
    Ms. Bordallo. Well thank you. That is good news.
    And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo. We will now go to 
Mrs. Hartzler.
    Mrs. Hartzler. Thank you Mr. Chairman. General, it is nice 
to meet you. I feel like fellow neighbor, here, being from 
Missouri, and appreciate what you do. Of course we are very 
proud of Rosecrans there, and the C-130s and the airlift they 
provide there. I hope some day to get over and see your base 
personally and tour it. But appreciate what you do.
    I guess my question is, as it relates to the planned Air 
Mobility Command airlift force structure, what is your greatest 
concern in providing airlift capabilities to support the 
Defense Strategic Guidance and contingency operations to other 
combatant commanders?
    General McDew. First, you are welcome to visit anytime. I 
have had a chance to go to Rosecrans on a number of occasions. 
The amount of training, the professionalism, and what they 
bring back to--particularly the C-130 fleet--is remarkable. 
There have been many folks that have said that the training 
they have gotten there is the best training they have ever 
received in their entire careers.
    So please come out and visit us in the cornfields of 
Illinois anytime.
    Mrs. Hartzler. I will pass that on. Thank you.
    General McDew. The Air Mobility Command force structure is 
of concern in a couple of regards, and I am a little bit 
removed from my last job as Air Mobility Command commander, but 
the capacity for the C-17, which has been a remarkable weapons 
system, the C-130, but more importantly I believe the tanker 
refueling fleet is where our greatest need is.
    That airplane is 50-plus years old, the KC-135. It was old 
when I flew it, three decades ago, so it is a bit older now. We 
will be flying it for several more decades. We built 700 of 
those airplanes between 1957 and 1964. It is going to take us 
till the mid- to late-1920s to build the next 179. So that 
recapitalization effort must stay on track, and at the rate 
they are doing it we are going to have to fly the current fleet 
of KC-135s 30 more years. So that is a potential problem.
    On the airlift fleet, I believe that our capacity is 
adequate, and we are just below what we need in capacity-wise 
by about a few airplanes. The Air Force is partnering with us 
to buy back some additional airplanes that they put in backup 
inventory, to bring them back to active inventory. We believe 
that will get us back to the numbers we think we will need in 
most contingencies.
    Of course as an aviator and a commander I can use as many 
as I can get my hands on, but I think that capacity will be 
sufficient with a manageable amount of risk.
    Mrs. Hartzler. It is very, very important, what you do to 
support the other aircraft and the missions being carried out. 
How has sequestration and future defense budget uncertainty 
affected MSC's [Military Sealift Command's] commercial partners 
if they are needed for a contingency or surge?
    General McDew. I believe sequestration impacts all of us. 
The biggest concern for sequestration is on, for me, it does 
impact MSC, it does impact most of our command, but mostly 
because it impacts the services. We rely on the services to 
organize, train, and equip the forces that we will need, all 
the combatant commanders will need in time of war.
    Anything that provides the services with unpredictable 
budgets, anything that decreases their ability to modernize, 
decreases their ability to plan for a new C-17 replacement, to 
keep the KC-46 on track, any of those things adversely impacts 
not only me, but then through me all of the combatant commands. 
So sequestration is not our friend.
    Mrs. Hartzler. Absolutely. I am a member of the Budget 
Committee as well as, and we are working very hard to try to 
make sure that you have what you need and that we make sure and 
replace the defense cuts that were scheduled a few years ago.
    Thank you very much for your service.
    Mr. Wittman. Thank you, Mrs. Hartzler.
    Now we will go to Mr. Gibson.
    Mr. Gibson. Thank you, Mr. Chairman.
    And General, thank you very much for your leadership. 
Congratulations and thank you for your service, sacrifices of 
your family, and I also see your hardworking staff behind you, 
and I appreciate them as well.
    A couple of questions in terms of this budget. I'm 
interested to know the commitment from the command in terms of 
revitalizing the Global Response Force [GRF], and then if you 
could also talk to the European Reassurance Initiative, 
concerns you have with regard to your command's 
responsibilities thereof.
    General McDew. I just have to scramble to write because I 
have no memory any more. First note, hardworking staff, they 
are more than hardworking, they are brilliant, and they 
underpin anything I am able to do. There are some great men and 
women at U.S. Transportation Command that underpin, I think, 
the power of this Nation and I always will take an opportunity 
to brag about them when I get a chance. So thank you.
    Revitalizing the Global Response Force--it is something 
that concerns me because I have told my other combatant 
commander friends, whatever they do is what we do. And how they 
do it, how they plan for it, impacts what we can help them 
with.
    If they go into a cloak-filled room to provide a Global 
Response Force but can't make sure it is transportation 
feasible, then we don't have a Global Response Force. Our 
ability to project an immediate force tonight and a decisive 
force tomorrow is underpinned in the cornfields of Illinois, in 
this country.
    I think all of them understand that, and we are working 
very closely with each and every one of them to do it, 
including my friend at European Command [EUCOM]. That 
initiative is going to be transportation-heavy to be able to 
move back and forth the forces we will need to provide 
reassurance to our allies and we are ready to do it.
    I think we will also provide some cargo capacity to keep 
capacity in our maritime fleet, which is also important to this 
Nation.
    Mr. Gibson. Just to follow up, in terms of the rotating 
armored brigade combat team, do you feel you have good numbers 
now in terms of what impact that is gonna be, how that is gonna 
affect your ability to accomplish your worldwide mission in 
view of this new requirement?
    General McDew. I don't believe we have all of the numbers 
that we will need until we fully understand the size, scope, 
and periodicity of those rotations. I do believe we have the 
capacity to take care of it and the rest of the world but it 
depends on what the rest of the world looks like. If the rest 
of the world stays relatively calm, and we are not putting 
large troop rotations through another region of the world, yes. 
If we have the capacity we have right now in the Middle East 
and we had to swing to another massive thing while doing those 
troop rotations we would just have to make sure that we time it 
appropriately and see where we might assume some risk with some 
limited assets.
    The first one that will come to be a limiting factor is our 
air refueling fleet. That fleet will be a lim fac [limiting 
factor] very, very quickly if we are swinging from one region 
of the world to the other, because we are using it so heavily 
right now in the Central Command [CENTCOM] region.
    Mr. Gibson. I am not surprised. I expected that and I 
appreciate the comment very much. I think that is really where 
the risk is. I support where we are heading on this. I think it 
is important for the reassurance, but when you consider the 
other requirements that we have from the other combatant 
commanders, and the uncertain environment, the volatile and 
uncertain environment, I am concerned as far as commitments we 
are making, and then if we should have to do something in the 
Pacific that is rather significant, would we still be able to 
accomplish our reassurance in Europe.
    Some of this we probably don't want to go into now, it 
would rather be classified, but just know that this committee 
from a readiness standpoint, that is one of the issue areas and 
concerns we have and so we very much look to you and your staff 
to give that fine-point analysis on this going forward.
    Anything else, sir, that you wanted to mention?
    General McDew. No, it is something that my staff back at 
Scott [Air Force Base] works on almost daily. We are in 
constant contact with each of the combatant commands. We have 
asked, though, that we look at some of the timing to ensure 
that we don't try to put all of it out all at once. If we can 
smooth flow it out and at least be as predictable as we can, I 
believe that we can accomplish most of what the European 
Reassurance Initiative will get for us and still underpin the 
deployments around the world.
    Mr. Gibson. Thank you very much, General.
    And with that, Chairman, I yield back.
    Mr. Wittman. Thank you very much, Mr. Gibson.
    Why don't I go to Mr. Peters.
    Okay, thank you.
    General, I wanted to talk a little bit about the DP3 
[Defense Personal Property] program as we had spoken at a 
little bit earlier.
    I know the transition from the previous contractor to the 
new contractor didn't get off on the best foot. We got a lot of 
calls, as well as others, about personal property and the 
timeliness of it getting back stateside or even getting to 
forward-deployed areas wherever those folks may be.
    Can you give us an up-to-date perspective on where the DP3 
program is now with current carrier, the timeliness, the 
performance standards that are required on the contract, and 
how this contractor is performing?
    General McDew. Our global privately owned vehicle contract, 
the GPC-3, was something that I had to learn quickly about when 
I took command of U.S. Transportation Command because as I tell 
my staff--you move goods and services for the military all the 
time but when you move a family, that is something that really 
is extremely emotional and we all understand it because we all 
have families who have moved around the world.
    And so this particular contract did not get off to a good 
start. But the movement from a vendor who had it for 15 years, 
transitioning to a new one is always going to have some 
challenges. But there was also a period of time where the new 
contractor wasn't allowed to get started because of a protest. 
So that further hampered their ability.
    And there is no other way to describe it but abysmal is how 
it started.
    But last year, this contractor moved 72,000-plus vehicles. 
They had four quarters of work. Their lowest quarter of on-time 
delivery was 86 percent. They had two quarters above 99 
percent. I believe they have turned the corner.
    I have challenged my staff to say one day we will recompete 
this contract. We don't want to have this happen again. So we 
are--I am taking a briefing every single peak season, I will 
take a briefing. We should never be surprised that the peak 
season for moving people is the summertime. And surprisingly, 
Christmas happens on the 25th of December. We shouldn't be 
shocked by that at any time in the future. And I don't think we 
will be.
    Mr. Wittman. Thank you, General McDew.
    Are there any other questions? Mr. Peters.
    Mr. Peters. I want to thank you, General. I apologize. They 
scheduled two hearings at the same time for me so I am trying 
to run between both.
    And what I would like to do, Mr. Chairman, if it is all 
right, I have a couple questions having to do with strategic 
ports and the use of them that I will submit for the record. 
And I appreciate, Mr. Chairman, your having this hearing.
    Mr. Wittman. Thank you, Mr. Peters. We will gladly do that.
    Any other questions that you might have, General McDew will 
submit them for the record, and as well as any other committee 
members.
    So if there are no further questions before this hearing, I 
will adjourn.
    General McDew, thank you very much. Thank you.
    [Whereupon, at 11:03 a.m., the subcommittee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                             March 15, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2016

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

      
  
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. Do you agree that the 60 Maritime Security Program 
ships provide USTRANSCOM with assured access to an effective, national 
defense sealift capability?
    General McDew. Yes, the capacity and vast intermodal capabilities 
offered by Maritime Security Program (MSP), and assured through our 
Voluntary Intermodal Sealift Agreement Contingency Contracts, enable 
USTRANSCOM to project and sustain forces across the globe and meet the 
most demanding wartime requirements. The MSP ships provide 
approximately 20% of our entire force projection capacity and almost 
all of our sustainment capacity. Additionally, MSP provides over 2,400 
mariners that contribute to the current pool of 11,280 mariners that 
presently crew both the government-owned and commercial ships.
    Mr. Wittman. If the Maritime Security Program's effectiveness is 
minimized and U.S. flag is reduced, what would be the impact on our 
military's ability to fully activate, deploy and sustain forces?
    General McDew. Reductions to the number of vessels participating in 
Maritime Security Program (MSP) would result in USTRANSCOM's inability 
to fully activate, deploy and sustain forces across the globe. The pool 
of U.S. mariners need to crew the U.S. flag commercial fleet as well as 
the government-owned surge fleet is at a point where additional vessel 
losses will jeopardize our ability to project power to meet wartime 
requirements.
    Today there are 78 U.S. flag ships trading internationally of which 
60 participate in the MSP program and receive a stipend to offset the 
cost of operating a U.S. flag vessel. Reductions to government impelled 
and commercial cargo would likely result in losses to MSP vessels and 
other U.S. flag ships trading internationally. These reductions would 
further degrade USTRANSCOM's ability to crew the surge fleet upon 
activation.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. I reviewed with great interest the report prepared by 
the U.S. Transportation Command (TRANSCOM) in response to section 1085 
of the FY 2016 NDAA (hereinafter, ``the Report''). The purpose of the 
Report is to foster a data-driven process for determining the level of 
peacetime airlift augmentation necessary to ensure CRAF readiness and 
interoperability. I recognize that TRANSCOM currently projects 
relatively high levels of CRAF airlift augmentation due to current 
world events, but we have seen CRAF augmentation fluctuate in the past 
(e.g., following the post-OIF/OEF drawdown). Would you agree that it is 
important for TRANSCOM to develop a systematic process for determining 
the level of airlift augmentation necessary to maintain CRAF readiness 
and interoperability?
    General McDew. CRAF is an exceptionally important part of the 
National Defense transportation capacity. We depend on our CRAF 
partners to routinely augment airlift especially if we need to mobilize 
for war. We agree that it is important that USTRANSCOM maintains a 
systematic process to ensure CRAF carriers are able to operate within 
the military airlift system. We believe USTRANSCOM's current plans and 
our forecasted workload over the next several years will be sufficient 
to maintain interoperability throughout the airlift system.
    USTRANSCOM defines CRAF readiness and interoperability as the 
ability for CRAF carriers to operate within the military airlift 
system. In the Report, USTRANSCOM, using a systematic process, defined 
the minimum level of airlift augmentation as a combination of flying, 
and particularly ground activities, which preserve CRAF readiness and 
interoperability.
    USTRANSCOM previously employed, and continues to employ, a 
systematic process for determining the level of commercial airlift 
augmentation, as required by the National Airlift Policy, which it 
shares during executive engagements with industry throughout the year, 
and which was affirmed by the CRAF Study, Phase II Report, in 2014.
    Mr. Hunter. I was struck by the Report's assertions that: (i) 
``ground activities and engagements,'' such as board meetings and 
industry group gatherings, are sufficient to maintain interoperability 
between CRAF carriers and the military airlift system; and (ii) that 
there is ``little correlation between hours flown by CRAF participants 
on DOD missions and their ability to operate within DOD networks.'' The 
National Airlift Policy, signed by President Reagan and still in force 
today, requires DOD to ``establish appropriate levels for peacetime 
cargo airlift augmentation in order to promote the effectiveness of the 
Civil Reserve Air Fleet and provide training within the military 
airlift system.'' Please explain how TRANSCOM's reliance on ground 
activities is consistent with the National Airlift Policy's directive 
to ensure CRAF readiness and interoperability by ``establish[ing] 
appropriate levels for peacetime cargo airlift augmentation''?
    General McDew. USTRANSCOM defines CRAF readiness and 
interoperability as the ability for CRAF carriers to operate within the 
military airlift system. This includes the ability of the carriers to 
successfully interface with DOD's command and control activities as 
well as the ability of commercial crews to safely operate at military 
airfields. In the report, USTRANSCOM, using a systematic process, 
established an appropriate level of airlift augmentation which 
accounted for the military airlift system training provided by ground 
activities.
    Ground activities and engagements alone are not sufficient to 
ensure readiness and interoperability. It also requires an appropriate 
number of touch points between commercial aircraft and military aerial 
port personnel which occur when CRAF participants operate DOD missions. 
However, it is the number of these touch points versus the number of 
hours flown that are important when determining the minimum level of 
airlift augmentation required to meet National Airlift Policy 
objectives. For example, a greater contribution to CRAF readiness and 
interoperability is achieved by two CRAF cargo flights originating at 
Dover AFB and flying five hours to Keflavik, Iceland, than a single 
flight flying 20 hours to Al Udeid AB, Qatar. Although the ``block 
hours'' are half as much for the two flights to Keflavik, arguably 
twice as much experience is gained by both DOD and the carriers on 
those two flights compared to the single flight to Al Udeid. The 
National Airlift Policy requires the DOD to (1) promote the 
effectiveness of the CRAF and (2) provide training within the military 
airlift system. USTRANSCOM accomplishes the first task via CRAF/
commercial augmentation contracts and accomplishes the second task 
through systemic ground-based activities/engagements and aerial port 
touch points.
    Mr. Hunter. All DOD assets (e.g., aircraft, ground vehicles, ships, 
submarines, and weapons) are required to be exercised within a military 
operating environment. The Report suggests that CRAF is an exception 
because pilots are already routinely flying in commercial activities. 
Would you agree that strategic airlift readiness requires exercising 
the entire network and enterprise (including military ground 
personnel), not just pilots? If so, how does TRANSCOM ensure the 
readiness and interoperability of the entire network with such low 
levels of peacetime airlift augmentation?
    General McDew. USTRANSCOM ensures the readiness of CRAF 
participants with respect to interoperability within the military 
airlift system in accordance with the guidance in the NAP. There is a 
corresponding spectrum of activities and engagements that provide the 
touch points necessary for CRAF participants to successfully operate 
within DOD networks. These include a minimum level of commercial 
aircraft activity at AMC aerial ports, certifications and CRAF 
participant inspections, table-top CRAF activation exercises and key 
leader interfacing between the military and industry at various 
echelons.
    USTRANSCOM's assessment determined there is little correlation 
between increased hours known by CRAF participants on DOD missions and 
their ability to operate within DOD networks. Pilot seasoning is a 
responsibility of the airline and a prerequisite for participation in 
the CRAF program. Interoperability between carriers and the military 
airlift system is a function of aerial port activity, exercises, 
inspections, and interface at various echelons.

                                  [all]
</pre></body></html>
